*r'

APPEAL

Rule 44.2 and RulelO

RECEIVED
APR 1 9 2021
9r,^cT0mRsK

In The

Supreme Court of the United States

Appeal
Vilma Walker & Lorren Soares
v.
Deutsche Bank National Trust Company,
Solely As Trustee For Harborview Mortgage Loan Trust
Mortgage Loan Pass-Through Certificates,
Series 2007-6
No: 20-938
On Petition For Writ Of Certiorari
To The Supreme Court Of Florida

PETITION FOR WRIT OF CERTIORARI
Lorren Soares & Vilma Walker
P O Box 750871
Forest Hills NY 11375-0871
PH: 1-646-946-1002
RECEIVED
MAY - 6 2021
OFFICE OF THE CLERK
SUPREME COURT ll s

Ladies and Gentlemen with regard to United States Supreme Court Rule
44.2 for Rehearing, I Lorren Soares would like to point out that there
are intervening circumstances that does have a substantial and also a
controlling effect, because I am a person on disability, being knocked
down by a car that jumped the sidewalk in New York City as I stood in
front of a hotel, waiting for my customer, knocking me out of my wits.
It was already difficult going through Graduate School, but that forced
me into an indefinite leave of absence from my already struggling to
finish my studies.
Fortunately for me driving that Limousine was a part of funding
Graduate School, but unfortunately winding up with a disability.
That three bedroom (3), two and a half bathroom (2 34) comdominium
was our retirement home, but more so for Vilma Walker who is 67
years old, and that it was a presentable place for our two kids, one
retired from the Navy and the other from the Army, to spend time with
their mother.
Deutsche Bank continually refused to meet with us, so they never gave
us a chance to understand our situation, and literally sold the
condominium to themselves or their associates of which they still have
control, and can still return to us or give us compensatory, or be fined
punitively, accordingly.

Respe,

opfen G. Soares and for Vilma Walker

4/14/21

As in Rule 10, none of the courts considered Lorren Soares's disability,
and that was a mistake.

Deutsche Bank engaged in a criminal behavioral pattern, consistent with
“Systemic Racism.”
Deutsche Bank Violated the Civil Rights Act of 1866, which established the
right of African Americans to enter into contracts the same way as white
individuals, when the bank repeatedly declined to negotiate with Vilma
Walker’s request to get pay off figure, so she could secure a mortgage to pay
off Deutsche Bank for its loan.
Deutsche Bank in a facetious manner illegally requested a “Writ of
Possession,” when it failed to take into account that Vilma Walker, a bonafide purchaser of the Association’s foreclosure, was the new owner of the
property when issued a Title by the Broward County Court, Florida and
might be able to get a loan and pay off Deutsche Bank’s mortgage.
Deutsche Bank along with its partner Ocwen Loan Servicing turned into
PHH Mortgage refusal to give Vilma Walker a pay off figure, was to prevent
her from securing a loan to pay off the mortgage.
We therefore not only ask this court to grant us what was asked for in the
Writ of Mandamus in the Florida Supreme Court, but also the
Compensatory and Punitive Damages asked for in the United States Court
of Appeals, Eleventh Circuit in Atlanta.

CERTIFICATION OF PETITION

RE: Walker, et al. V. Deutsche Bank National Trust Co., etc.
No: 20-938

I Lorren G Soares do certify that the petition for rehearing is presented in
good faith, and not for delay.

Additional material
from this filing is
available in the
Clerk's Office.

/i

